                   AUDIT REPORT

     Audit of NRC’s Use of Confirmatory Action Letters


                OIG-12-A-09 February 10, 2012




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL




                                          February 10, 2012


MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S USE OF CONFIRMATORY ACTION
                            LETTERS (OIG-12-A-09)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Use of Confirmatory Action Letters.

The report presents the results of the subject audit. Agency comments provided at the
January 20, 2012, exit conference have been incorporated, as appropriate, into this
report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or RK Wild, Team Leader, Nuclear Reactor Safety Audits Team, at 415-5948.

Attachment: As stated
                                            Audit of NRC’s Use of Confirmatory Action Letters




BACKGROUND

      The Nuclear Regulatory Commission (NRC) regulates commercial nuclear
      power plants and other civilian uses of nuclear materials, such as in
      nuclear medicine, through licensing, inspection, and enforcement of its
      requirements. In exercise of its regulatory responsibilities, NRC uses
      administrative actions, such as Confirmatory Action Letters (CALs) to
      supplement the agency’s enforcement program. CALs are “letters
      confirming a licensee's agreement to take certain actions to remove
      significant concerns about health and safety, safeguards, or the
      environment.”

      Administration of Confirmatory Action Letters

      The NRC Office of Enforcement is responsible for the development and
      implementation of the NRC Enforcement Policy (Policy) and the NRC
      Enforcement Manual (Manual). The Policy sets forth the general
      principles governing NRC’s enforcement program. The Manual contains
      guidance on preparation, issuance, coordination, tracking, and closure of
      CALs and delegates authority for issuing CALs to the NRC regional
      administrators and some program office directors.

OBJECTIVE

      The audit objective was to determine the effectiveness of NRC’s utilization
      of CALs as a regulatory tool. To meet this objective, Office of the
      Inspector General (OIG) auditors focused on the agency’s administration
      of the CAL process.

RESULTS IN BRIEF

      NRC’s administration of the CAL process is not as effective as it could be.
      Specifically, CAL guidance is inconsistent because the CAL guidance
      does not include some offices’ roles or clearly identify all CAL recipients.




                                     i
                                          Audit of NRC’s Use of Confirmatory Action Letters



     Further, NRC program and regional offices do not fully comply with CAL
     guidance. Despite requirements contained in the Manual for the
     concurrence, tracking, and numbering of CALs,

           Some required office concurrences on CALs are missing.
           CAL tracking practices vary among offices.
           CAL numbering conventions vary among offices.

     Weaknesses in NRC’s CAL guidance and compliance with the guidance
     exists because the agency does not have a centralized control point for
     agencywide oversight and implementation of a fully effective CAL process,
     including consistent CAL guidance, compliance with the guidance, and the
     tracking of CALs.

     Consequently, NRC may be missing opportunities to effectively use CALs
     for potential CAL recipients not identified in current guidance and to
     efficiently track and trend CALs.

RECOMMENDATIONS

     This report makes four recommendations to improve the agency’s process
     for administering CALs. A list of these recommendations appears on page
     11 of this report.

AGENCY COMMENTS

     On January 10, 2012, OIG issued the discussion draft of this report to the
     Executive Director for Operations. OIG met with NRC management
     officials and staff on January 20, 2012, at an exit conference to discuss
     the draft report. At this meeting, agency management stated its
     agreement with the report recommendations and provided informal
     comments for OIG to consider for incorporation into the report. OIG
     incorporated the agency comments into the report as appropriate. NRC
     management and staff reviewed and agreed with the revisions and opted
     not to provide formal comments for inclusion in this report.




                                   ii
ADAMS      Agencywide Documents Access and Management System

Appendix B 10 CFR Part 50, Appendix B

CAL        Confirmatory Action Letter

CFR        Code of Federal Regulations

FSME       Office of Federal and State Materials and Environmental
           Management Programs

Manual     NRC Enforcement Manual

NMSS       Office of Nuclear Material Safety and Safeguards

NRC        Nuclear Regulatory Commission

NRO        Office of New Reactors

NRR        Office of Nuclear Reactor Regulation

NSIR       Office of Nuclear Security and Incident Response

OE         Office of Enforcement

OIG        Office of the Inspector General

Policy     NRC Enforcement Policy




                           iii
TABLE OF CONTENTS

        EXECUTIVE SUMMARY ............................................................. i

        ABBREVIATIONS AND ACRONYMS ......................................... iii

        I.     BACKGROUND .................................................................. 1

        II.    OBJECTIVE ....................................................................... 3

        III.   FINDING ............................................................................. 3

                   NRC’s Approach to CAL Administration Is Not as
                   Effective as it Could Be ................................................. 4

                   Recommendations ..................................................... 11

        IV.    AGENCY COMMENTS..................................................... 11



        APPENDICES

               A. EXAMPLE OF A RECENTLY ISSUED
                  CONFIRMATORY ACTION LETTER ......................... 12

               B. OBJECTIVE, SCOPE, AND METHODOLOGY .......... 16




                                                  iv
                                             Audit of NRC’s Use of Confirmatory Action Letters



I.   BACKGROUND

         The Nuclear Regulatory Commission (NRC) regulates commercial nuclear
         power plants and other civilian uses of nuclear materials, such as in
         nuclear medicine, through licensing, inspection, and enforcement of its
         requirements. In exercise of its regulatory responsibilities, NRC uses
         administrative actions, such as Confirmatory Action Letters (CALs), to
         supplement the agency’s enforcement program. CALs are “letters
         confirming a licensee's agreement to take certain actions to remove
         significant concerns about health and safety, safeguards, or the
         environment.” Appendix A of this report contains an example of a CAL
         that NRC recently issued.

         The origins of CALs can be traced to 1974. At that time, NRC created
         Immediate Action Letters that the agency would use to confirm a
         recipient’s commitment to certain actions. NRC also used the letters to
         document cases where the recipient voluntarily agreed to cease
         operations until the recipient properly evaluated and corrected the
         situation. In 1982, the agency changed the name from Immediate Action
         Letters to Confirmatory Action Letters.

         NRC expects the recipient of a CAL to adhere to any obligations and
         commitments addressed in the letter. CALs do not establish legally
         binding commitments with the exception of a provision to report
         information to NRC. If a recipient failed to meet a commitment in a CAL,
         according to agency guidance, NRC would likely proceed with stringent
         enforcement sanctions such as an order. An order is an enforcement
         sanction that NRC issues to modify, suspend, or revoke licenses or to
         impose civil penalties.

         Administration of Confirmatory Action Letters

         The NRC Office of Enforcement (OE) is responsible for the development
         and implementation of the NRC Enforcement Policy (Policy) and the NRC
         Enforcement Manual (Manual). The Policy sets forth the general
         principles governing NRC’s enforcement program. The Manual contains
         guidance on preparation, issuance, coordination, tracking, and closure of
         CALs.




                                      1
                                                                     Audit of NRC’s Use of Confirmatory Action Letters



                The Manual delegates authority for issuing CALs to the NRC regional
                administrators and the directors of the Office of Nuclear Reactor
                Regulation (NRR), the Office of Nuclear Material Safety and Safeguards
                (NMSS), the Office of Federal and State Materials and Environmental
                Management Programs (FSME), and the Office of New Reactors (NRO).
                The Manual also states that offices with the potential for issuing CALs
                have the responsibility for preparing, issuing, coordinating as required,
                tracking the status, and appropriately closing out CALs.

                When asked about CAL guidance that program and regional offices use,
                some program offices and regions identified office instructions and
                inspection guidance, in addition to the Policy and Manual, as a source of
                guidance, as shown in Table 1.

                Table 1: Additional CAL Guidance Provided by NRC Offices and Regions



                   Guidance                                             Offices
                                      NRR NMSS FSME NRO NSIR RI RII RIII RIV
                 Office                X         X           X X          X
                 Instructions
                 Inspection              X                     X         X
                 Guidance
                Note: NSIR is the Office of Nuclear Security and Incident Response. The four NRC regions are indicated as
                RI, RII, RIII, and RIV.

                Source: OIG analysis of CAL guidance provided by NRC offices and regions


                From January 1, 2000, to April 30, 2011, NRC issued approximately 195
                CALs to different entities, including nuclear power plants, decommissioned
                reactors, research and test reactors, materials licensees, certificate of
                compliance holders,1 and non-licensees. During this approximate 11-year
                period, the agency has issued on average 17 CALs each year, with NRR
                issuing the most and Region I issuing the second largest number of CALs.




1
  A certificate of compliance holder is an entity that has a certificate issued by the Commission approving
the design of a spent fuel storage cask in accordance with Title 10 Code of Federal Regulations (10 CFR)
Part 72, Licensing Requirements for the Independent Storage of Spent Nuclear Fuel, High-Level
Radioactive Waste and Reactor-Related Greater than Class C Waste.

                                                           2
                                                Audit of NRC’s Use of Confirmatory Action Letters



II.    OBJECTIVE

           The audit objective was to determine the effectiveness of NRC’s utilization
           of CALs as a regulatory tool. To meet this objective, Office of the
           Inspector General (OIG) auditors focused on the agency’s administration
           of the CAL process. Appendix B contains information on the audit scope
           and methodology.



III.   FINDING

           NRC’s administration of the CAL process is not as effective as it could be.
           The agency position is that CALs are a valuable enforcement tool for
           obtaining timely confirmation that the recipient has agreed to take action
           that will remove significant concerns regarding health and safety, the
           environment, safeguards, or security. As such, maintaining a viable and
           consistent CAL program is of utmost importance to the agency.

           NRC’s CAL guidance lacks consistency and the agency does not fully
           comply with its guidance. This is because NRC does not have a
           centralized control point for agencywide oversight and implementation of a
           fully effective CAL process, including consistent CAL guidance,
           compliance with the guidance, and the tracking of CALs. Consequently,
           NRC may be missing opportunities to effectively and efficiently administer
           the use of CALs.

           Requirements for Effective Programs

           Federal internal control standards provide for continuous program
           assessment and evaluation to assure program effectiveness. Standards
           for Internal Control in the Federal Government state that Federal program
           managers must provide continuous mission and program internal control
           assessment and evaluation.

           In implementing these standards, management is responsible for
           developing internal controls—such as detailed policies, procedures,
           guidance, and practices—to fit their agency’s operations and be an
           integral part of daily operations. Specifically, achieving effective
           administration of the CAL process requires consistent guidance and
           compliance with the established guidance.

                                         3
                                      Audit of NRC’s Use of Confirmatory Action Letters



NRC’s Approach to CAL Administration Is Not as Effective as It
Could Be

NRC’s administration of the CAL process is not as effective as it could be.
There is a lack of consistency in the agency’s CAL guidance. Moreover,
program and regional offices do not fully comply with CAL guidance.

CAL Guidance Is Inconsistent

Agency guidance for CAL implementation has inconsistencies. For
example, CAL guidance does not include some offices’ roles or clearly
identify all CAL recipients.

The Manual does not consistently identify some offices’ roles pertaining to
CAL administration. Two offices that the Manual does not acknowledge
consistently are FSME and NRO. In its “Responsibilities and Authorities”
section, the Manual authorizes the Directors of FSME and NRO to sign
and issue CALs. However, the Manual is silent on FSME’s and NRO’s
role in virtually all remaining sections, even though those sections mention
other agency offices by name. These sections include:

       CAL Coordination and Review.
       CAL Signature Authority.
       Licensee Notification, Mailing and Distribution for CALs.
       CAL Tracking Responsibilities.
       Closing Out CALs.

Moreover, CAL guidance does not clearly identify all CAL recipients. The
entities that the Policy identifies as CAL recipients are licensees or
contractors, whereas the Manual states CAL recipients are licensees or
vendors. In addition, Inspection Procedure 92703, Followup of
Confirmatory Action Letters or Orders, states CAL recipients are licensees
or individuals. As illustrated in Table 2, it is unclear who the intended CAL
recipients are.




                               4
                                              Audit of NRC’s Use of Confirmatory Action Letters



Table 2: Recipients Identified in CAL Guidance


                             Licensees Contractors Vendors Individuals
 Policy                          X          X

 Manual                           X                               X

 Inspection                       X                                                X
 Procedure 92703
Source: OIG analysis of CAL guidance provided by NRC offices and regions

Furthermore, the Manual clearly states that CALs should not be used to
remove an individual from, or restrict his or her ability to perform, licensed
activities. The Manual further cautions against the use of CALs for
individuals because, in such instances, individual rights are affected and
the opportunity for a hearing must be given both to the licensee and to the
affected individual.

The variety of CAL recipients and the types of concerns addressed in
CALs that NRC issued are illustrated in Table 3.

Table 3: Various Recipients and Concerns Addressed in CALs

 Recipient Type                       Concern                               Issuing Office
 Commercial Power                     Inattentive security guards           Region I
 Reactor Licensee

 Research and Test                    Unexpectedly high dose rates          NRR
 Reactor Licensee

 Medical Use Licensee                 No radiation safety officer and       Region I
                                      broken lock

 Fuel Cycle Facility                  Unacceptable enriched uranium         Region II
 Licensee                             configuration

 Certificate of Compliance            Waste transportation drum             NMSS
 Holder                               performance

 Real Estate Company                  Unlicensed tritium found in           Region II
 Non-Licensee in                      building
 Possession of Materials

Source: OIG analysis of agency-provided documentation



                                      5
                                     Audit of NRC’s Use of Confirmatory Action Letters



Agency Offices Do Not Fully Comply With CAL Guidance

NRC program and regional offices do not fully comply with CAL guidance.
Despite requirements contained in the Manual for the concurrence,
tracking, and numbering of CALs,

      Some required office concurrences on CALs are missing.
      CAL tracking practices vary among offices.
      CAL numbering conventions vary among offices.

Concurrences on CALs Are Missing

Some required office concurrences on CALs are missing. The Manual
requires the Director, NRR, to concur on CALs issued to reactor licensees
and the Director, Office of Nuclear Security and Incident Response
(NSIR), to concur on security-related CALs. However, OIG identified
several CALs issued to reactor licensees that did not have NRR
concurrence, as well as several security-related CALs that did not have
NSIR concurrence.

CAL Tracking Practices Vary

Tracking practices vary among the agency’s program and regional offices
despite agency guidance that requires accounting of specific information.
The Manual stipulates that offices and regions should maintain a list
summarizing the following information that would be suitable for auditing
purposes:

      How many CALs have been issued.
      To whom the CAL has been issued.
      Why the CAL was issued, i.e., a brief description of the issues.
      When all corrective actions were or will be completed.

None of the program and regional offices maintain tracking lists that
adequately provide all the information as required by the Manual. The
methods offices and regions use for tracking the CALs issued vary from
no tracking to some method of tracking, but without the information
needed for auditing purposes.




                              6
                                                             Audit of NRC’s Use of Confirmatory Action Letters



                Agency officials provided various explanations for why they do not track
                CALs. Reasons included issuing too few CALs to justify a tracking system
                and relying on other offices to track CALs.

                Some offices also indicated that they rely on the Agencywide Documents
                Access and Management System (ADAMS)2 for locating and knowing the
                status of their CALs. However, ADAMS is a document repository, not a
                tool to track the information to the degree of specificity that the Manual
                requires. Further, ADAMS is vulnerable to user-introduced inaccuracies.
                For example, CALs in ADAMS do not have consistent profile descriptions,3
                which made it difficult for agency and OIG staff to search for and locate
                documents in ADAMS. In some cases, offices inconsistently profiled or
                described CALs as “letter,” “inspection report,” and/ or “CAL.” When
                asked for a list of CALs, at least one office that issues CALs and relies
                solely on ADAMS for tracking, overlooked a number of CALs because the
                CALs were profiled inconsistently.

                Numbering Conventions Vary

                Some offices used numbering conventions that vary from the required
                numbering format. The Manual states that the issuing program or regional
                office assigns the CAL a tracking number based on the office acronym,
                the year of issuance, and the sequential CAL number for that year (e.g.,
                XXXX-06-008). However, in some instances, offices used variations of
                this format, including CAL numbers with no clear indication of the program
                or regional office acronym, the year issued, and/or the sequential CAL
                number for that year. One office was not internally consistent with its own
                numbering scheme, using variations of CAL numbering conventions
                including 02-8-00 and XXXX-2010-001. Use of numbering conventions
                that varied from the required numbering format has likely led to the use of
                duplicate CAL numbers identified during this audit.




2
  ADAMS is NRC’s official recordkeeping system that contains vast libraries or collections of documents
related to the agency’s regulatory activities.
3
  Every document in ADAMS has a document profile that stores information about the document, such as
author, title, docket number, public availability, etc. The document profile provides consistent fields of
information needed to identify, locate, list, and manage documents. For example, the document profile
has properties that describe the Document Date, Document Sensitivity, Author Name, etc.
                                                    7
                                     Audit of NRC’s Use of Confirmatory Action Letters



NRC Would Benefit From a Centralized Control Point To Oversee the
CAL Process Agencywide

NRC currently does not have a centralized control point for oversight and
implementation of an effective agencywide CAL process to include holding
program and regional offices accountable for following CAL guidance. If
the agency had a centralized control point, it would be able to, among
other things:

      Assess and update the Policy, the Manual, and other associated
      guidance to ensure that NRC’s approach for utilizing CALs is
      consistent, effective, and efficient. With authority over guidance, a
      centralized control point would be uniquely positioned to serve as a
      resource for program and regional offices issuing CALs. Even
      though no such control point currently exists at NRC, some
      program and regional office points-of-contact were under the
      impression that OE was already fulfilling this role to offer
      clarification of guidance and track their CALs.

      Conduct periodic CAL audits that verify compliance with CAL
      policies and procedures. In fact, in 2004, OE conducted an audit of
      agencywide CALs and found some tracking and numbering issues
      similar to those described in this OIG report. Yet, without being
      designated as a clear agencywide control point for CALs, the office
      lacked leverage to encourage the changes and lost institutional
      memory that it had conducted the audit.

      Implement a comprehensive, agencywide CAL tracking system.
      Doing so would eliminate the confusion over numbering schemes
      and sequences, and help to ensure agency staff and management
      awareness of the status of open CALs.

NRC Offices May Be Missing Opportunities To Effectively and
Efficiently Administer the Use of CALs

Without a centralized control point for oversight of the CAL process, NRC
may be missing opportunities to administer the use of CALs more
effectively and implement the CAL program more efficiently. Among other
things, this makes it challenging for the agency to ensure that all items
committed to by CAL recipients have been met.


                             8
                                                           Audit of NRC’s Use of Confirmatory Action Letters



               Opportunities To Use CALs More Effectively

               NRC may be missing opportunities to use CALs more effectively.
               Additionally, NRC may have been out of compliance with current guidance
               on who can receive a CAL. NRC has issued CALs to recipients not clearly
               identified in the Policy or Manual. For example, in one case, the CAL
               recipient — although not a licensee, vendor, or contractor — was able to
               take action expeditiously to address significant concerns about health,
               safety, and the environment. The flexibility to issue a CAL to a non-
               licensee who was in possession of nuclear materials may be a very
               effective use of a CAL. However, because the Policy and Manual do not
               identify non-licensees as potential CAL recipients, other NRC staff would
               not necessarily know that CALs could be effectively used in this manner.

               NRC may also be missing the opportunity to issue CALs to vendors.
               According to NRC staff, the agency has not issued CALs to the vendors
               that NRC inspects in accordance with 10 CFR Part 50, Appendix B
               (Appendix B).4 An NRC staff member stated that during a vendor
               inspection, if the Appendix B vendor’s quality assurance program is
               inadequate, it is conceivable that issuing a CAL would be useful.
               However, NRC’s Vendor Inspection Program staff have not pursued the
               use of CALs as a possible tool for vendors.

               Program Implementation Efficiencies Are Impacted

               NRC may also be missing opportunities to implement the CAL program
               more efficiently, primarily with regard to the agency’s CAL tracking efforts.
               Currently, the agency supports multiple CAL tracking systems that have
               varying degrees of effectiveness for identifying the universe of both open
               and closed CALs, and determining the status of open CALs. In requesting
               CALs from each of the program and regional offices, OIG found more
               CALs than offices reported. Further, OIG and NRC staff found it difficult to
               locate CAL closure letters, thus demonstrating that staff do not have CAL
               status information readily available. Without readily available CAL status
               information, the agency cannot determine in a timely fashion whether a
               CAL recipient has met all of the commitments described in the CAL.

4
 10 CFR Part 50, Appendix B, Quality Assurance Criteria for Nuclear Power Plants and Fuel
Reprocessing Plants, requires that a quality assurance program be applied to all activities affecting
structures, systems, and components of reactors that prevent or mitigate the consequences of postulated
accidents that could cause undue risk to the health and safety of the public. The appendix establishes
quality assurance requirements for the design, manufacture, construction, and operation of those
structures, systems, and components.
                                                   9
                                     Audit of NRC’s Use of Confirmatory Action Letters



Further, NRC may be missing trending opportunities by having several
dispersed CAL tracking systems. Trending CAL data provides an ongoing
record of system performance. Specifically, having the capability to trend
all of NRC’s CALs enables NRC to have a running record of CALs to
perform baseline comparisons, identify repeating issues, and monitor the
agency’s CAL activities.

Conclusion

The agency views the CAL as an effective and efficient means for
obtaining timely confirmation of actions a recipient has agreed to take in
order to remove significant concerns about public health, safety,
safeguards, security, or the environment. As such, CALs support NRC’s
overall safety mission. However, program implementation weaknesses,
such as inconsistent CAL guidance, prevent staff from using CALs to their
full potential and degrade NRC’s overall CAL program accountability.
Sustained non-compliance with established guidance may indicate weak
organizational accountability.

Strengthening organizational management with a centralized control point
for CALs would improve the agency’s oversight of and accountability for
CAL program requirements. Implementing such oversight would result in
improvements to NRC’s overall approach for using the CAL process.
More importantly, it would further support the agency’s responsibility for
overseeing the Nation’s safe operation of commercial nuclear power
plants and other uses of nuclear materials to ensure that the public and
environment are adequately protected.




                             10
                                              Audit of NRC’s Use of Confirmatory Action Letters



         Recommendations

         OIG recommends that the Executive Director for Operations:

          1. Designate a centralized control point to oversee and implement an
             effective agencywide CAL process.

          2. Assess and update the NRC Enforcement Policy, the NRC
             Enforcement Manual, and other associated guidance to ensure that
             NRC’s approach for utilizing CALs is consistent, effective, and
             efficient.

          3. Conduct periodic CAL audits that verify compliance with CAL policies
             and procedures.

          4. Implement a comprehensive, agencywide CAL tracking system.



IV.   AGENCY COMMENTS

         On January 10, 2012, OIG issued the discussion draft of this report to the
         Executive Director for Operations. OIG met with NRC management
         officials and staff on January 20, 2012, at an exit conference to discuss
         the draft report. At this meeting, agency management stated its
         agreement with the report recommendations and provided informal
         comments for OIG to consider for incorporation into the report. OIG
         incorporated the agency comments into the report as appropriate. NRC
         management and staff reviewed and agreed with the revisions and opted
         not to provide formal comments for inclusion in this report.




                                      11
                                       Audit of NRC’s Use of Confirmatory Action Letters



                                                                         Appendix A


Example of a Recently Issued Confirmatory Action Letter




                                 12
     Audit of NRC’s Use of Confirmatory Action Letters




13
     Audit of NRC’s Use of Confirmatory Action Letters




14
     Audit of NRC’s Use of Confirmatory Action Letters




15
                                              Audit of NRC’s Use of Confirmatory Action Letters



                                                                               Appendix B
OBJECTIVE, SCOPE, AND METHODOLOGY

    OBJECTIVE

         The audit objective was to determine the effectiveness of NRC’s utilization
         of Confirmatory Action Letters as a regulatory tool.




         The audit focused on reviewing the agency’s administration of the CAL
         process by examining relevant documents and conducting interviews with
         agency staff. While the audit primarily reviewed current agency guidance
         and practices with regard to CALs, auditors also reviewed CALs issued
         since January 1, 2000. We conducted this performance audit at NRC
         headquarters (Rockville, MD) from May 2011 through November 2011.
         Internal controls related to the audit objective were reviewed and
         analyzed. Throughout the audit, auditors were aware of the possibility or
         existence of fraud, waste, or misuse in the program.




         OIG reviewed agency regulations regarding NRC’s use of CALs, including
         the NRC Enforcement Policy and the NRC Enforcement Manual. OIG
         also reviewed office-specific guidance on CALs, including LIC-100,
         Control of Licensing Bases for Operating Reactors; and Regional Office
         Instruction No. 0904, Confirmatory Action Letters. Furthermore, OIG
         reviewed NRC inspection manual chapters, inspection procedures, and
         CALs issued between January 1, 2000, and April 30, 2011, which totaled
         195 CALs.

         OIG interviewed NRC staff who are involved in CAL-related activities.
         These interviews included a deputy executive director, office directors,
         deputy directors, project managers, and enforcement specialists. Overall,
         OIG conducted interviews with all program and regional office points-of-
         contact identified by the agency to obtain staff insights into the agency’s
         use of CALs.




                                      16
                                     Audit of NRC’s Use of Confirmatory Action Letters



We conducted this performance audit in accordance with generally
accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

The audit work was conducted by Sherri Miotla, Team Leader; R.K. Wild,
Team Leader; Kevin Nietmann, Senior Technical Advisor; Vicki Foster,
Audit Manager; and Andrea Ferkile, Senior Management Analyst.
Additional support was provided by Jacki Storch, Audit Manager; Robert
Woodward, Audit Manager; and Maxinne Lorette, Senior Auditor.




                             17
